Audit Report 96-08 Table of Contents
THE COMMUNITY CORRECTIONS CENTER PROGRAM
IN THE BUREAU OF PRISONS
Audit Report 96-08, (5/96)
TABLE OF CONTENTS
AUDIT RESULTS
FINDINGS AND RECOMMENDATIONS
FINDING 1. EFFICIENCY AND EFFECTIVENESS OF PROGRAM
OPERATIONS
Costs of the BOP and the Administrative
Office of the U.S. Courts
Recommendation
Institutional Transfers
Recommendation
Subsistence Collection Policy
Recommendations
FINDING 2. EFFECTIVENESS OF CONTRACT ADMINISTRATION
SCHEDULE OF DOLLAR RELATED FINDINGS
OTHER REPORTABLE MATTER
Program and Operational Reviews
STATEMENT ON MANAGEMENT CONTROL STRUCTURE
STATEMENT ON COMPLIANCE WITH LAWS AND
REGULATIONS
APPENDIX I - PERCEPTIONS OF SERVICE PROVIDERS
Program Goals
Job Placement
Staffing and Occupancy
Streamlining and Improving Programs
APPENDIX II - AUDIT SCOPE AND METHODOLOGY
APPENDIX III - PRIOR AUDIT HISTORY
APPENDIX IV - BOP RESPONSE TO DRAFT REPORT
APPENDIX V - OIG, AUDIT DIVISION, ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT
#####